UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




            System Review Report
                     On the
             Export-Import Bank
              of the United States
          Office of Inspector General




                                 September 24, 2014
                UNITED STATES GOVERNMENT
                National Labor Relations Board
                Office of Inspector General

                                      System Review Report

September 24, 2014

To:    Michael T. McCarthy, Acting Inspector General
       Export-Import Bank of the United States

We have reviewed the system of quality control for the audit organization of the Export-Import
Bank of the United States (Ex-Im Bank OIG) in effect for the year ended March 31, 2014. A
system of quality control encompasses Ex-Im Bank OIG’s organizational structure and the
policies adopted and procedures established to provide it with reasonable assurance of
conforming with Government Auditing Standards. The elements of quality control are described
in Government Auditing Standards. Ex-Im Bank OIG is responsible for establishing and
maintaining a system of quality control that is designed to provide Ex-Im Bank OIG with
reasonable assurance that the organization and its personnel comply with professional standards
and applicable legal and regulatory requirements in all material respects. Our responsibility is to
express an opinion on the design of the system of quality control and Ex-Im Bank OIG’s
compliance therewith based on our review.

Our review was conducted in accordance with Government Auditing Standards and the Council
of the Inspectors General on Integrity and Efficiency (CIGIE) Guide for Conducting Peer
Reviews of the Audit Organizations of Federal Offices of Inspector General dated September
2014. During our review, we interviewed Ex-Im Bank OIG personnel and obtained an
understanding of the nature of the Ex-Im Bank OIG audit organization, and the design of Ex-Im
Bank OIG’s system of quality control sufficient to assess the risks implicit in its audit function.
Based on our assessments, we selected audits and attestation engagements, collectively referred
to as “audits”, and administrative files to test for conformity with professional standards and
compliance with Ex-Im Bank OIG’s system of quality control. The audits selected represented a
reasonable cross-section of Ex-Im Bank OIG audit organization, with emphasis on higher-risk
audits. Prior to concluding the peer review, we reassessed the adequacy of the scope of the peer
review procedures and met with Ex-Im Bank OIG management to discuss the results of our
review. We believe that the procedures we performed provide a reasonable basis for our
opinion.

In performing our review, we obtained an understanding of the system of quality control for the
Ex-Im Bank OIG audit organization. In addition, we tested compliance with Ex-Im Bank OIG’s
quality control policies and procedures to the extent we considered appropriate. These tests
covered the application of Ex-Im Bank OIG’s policies and procedures on selected audits. Our
review was based on selected tests; therefore, it would not necessarily detect all weaknesses in
the system of quality control or all instances of noncompliance with it.



                                             2
There are inherent limitations in the effectiveness of any system of quality control, and,
therefore, noncompliance with the system of quality control may occur and not be detected.
Projection of any evaluation of a system of quality control to future periods is subject to the risk
that the system of quality control may become inadequate because of changes in conditions, or
because the degree of compliance with the policies or procedures may deteriorate.

Enclosure 1 to this report identifies Ex-Im Bank OIG offices that we visited and the audits that
we reviewed.

In our opinion, the system of quality control for the audit organization of Ex-Im Bank in effect
for the year ended March 31, 2014, has been suitably designed and complied with to provide Ex-
Im Bank OIG with reasonable assurance of performing and reporting in conformity with
applicable professional standards in all material respects. Audit organizations can receive a
rating of pass, pass with deficiencies, or fail. Ex-Im Bank OIG has received an External Peer
Review rating of pass.

As is customary, we have issued a letter dated September 24, 2014, that sets forth findings that
were not considered to be of sufficient significance to affect our opinion expressed in this report.

In addition to reviewing its system of quality control to ensure adherence with Government
Auditing Standards, we applied certain limited procedures in accordance with guidance
established by the CIGIE related to Ex-Im Bank OIG’s monitoring of audits performed by
Independent Public Accountants (IPAs) under contract where the IPA served as the auditor. It
should be noted that monitoring of audits performed by IPAs is not an audit and, therefore, is not
subject to the requirements of Government Auditing Standards. The purpose of our limited
procedures was to determine whether Ex-Im Bank OIG had controls to ensure IPAs performed
contracted work in accordance with professional standards. However, our objective was not to
express an opinion and accordingly, we do not express an opinion, on Ex-Im Bank OIG’s
monitoring of work performed by IPAs.




David Berry, Inspector General

Enclosure




                                              3
SCOPE AND METHODOLOGY (Enclosure 1)

Scope and Methodology

We tested compliance with the Ex-Im Bank OIG audit organization’s system of quality control to
the extent we considered appropriate. These tests included a review of 2 of the 2 audit reports
issued during the period April 1, 2013, through March 31, 2014. We also reviewed the internal
quality control reviews performed by Ex-Im Bank OIG.

In addition, we reviewed Ex-Im Bank OIG’s monitoring of audits performed by IPAs where the
IPA served as the auditor during the period April 1, 2013, through March 31, 2014. During the
period, Ex-Im Bank OIG contracted for the audit of its agency’s Fiscal Year 2013 financial
statements. Ex-Im Bank OIG also contracted for certain other audits that were to be performed
in accordance with Government Auditing Standards.

We visited the Headquarters Office of the Ex-Im Bank OIG in Washington, D.C.

Reviewed Engagements Performed by Ex-Im Bank OIG

Report No.       Report Date             Report Title
OIG-AR-14-01     December 11, 2013       Export-Import Bank’s Content Policy:
                                         Opportunities Exist to Improve Controls and
                                         Address the Impact of Voluntary Reporting
OIG-AR-13-05     September 26, 2013      Export-Import Bank’s Management of Direct
                                         Loans and Related Challenges

Reviewed Monitoring Files of Ex-Im Bank OIG for Contracted Engagements

Report No.         Report Date         Report Title
OIG-AR-14-02 /     December 13, 2013 / Audit of the Export-Import Bank of the United
OIG-AR-14-04       March 21, 2014      States Fiscal Year 2013 Financial Statements /
                                       Fiscal Year 2013 Financial Statement Audit
                                       Management Letter




                                           4
                  UNITED STATES GOVERNMENT
                  National Labor Relations Board
                  Office of Inspector General

September 24, 2014

To:       Michael T. McCarthy, Acting Inspector General
          Export-Import Bank of the United States

We reviewed the system of quality control for the audit organization of the Export-Import Bank
of the United States Office of the Inspector General (Ex-Im Bank OIG) in effect for the year
ended March 31, 2014, and have issued our report thereon dated September 24, 2014, in which
Ex-Im Bank OIG received a rating of pass. That report should be read in conjunction with the
comments in this letter, which were considered in determining our opinion. The findings
described below were not considered to be of sufficient significance to affect the opinion
expressed in that report. Ex-IM Bank OIG’s comments to our findings are included as an
enclosure.

      Finding 1 – Policies and Procedures not in accordance with Government Auditing
      Standards.

      Although we determined that the Ex-Im Bank OIG’s Audit Policy Manual met standards, it
      could be improved by addressing or otherwise clarifying its policies with regard to the
      following items:

      •   Removal of a posted report and posting a public notification to Web site users when a
          threat to independence is identified after the report is issued (Section 3.26);

      •   Procedures for providing other auditors with documentation in a timely manner when the
          work is being used by other auditors (Section 4.16);

      •   Procedures for reporting findings of noncompliance with provisions of laws, regulations,
          contracts, or grant agreements; or abuse directly to parties outside the audited entity and
          obtaining confirmations from outside parties as needed (Section 4.30);

      •   Procedures to ensure auditors obtain an understanding of information systems controls
          and related audit procedures needed when information systems are used extensively
          throughout the program under audit and the fundamental business processes related to the
          audit objectives (Sections 6.24, 6.27);

      •   Procedures to cover potential re-issued or reposted reports on the Web site when auditors
          discovered that they did not have sufficient, appropriate evidence to support the reported
          findings or conclusions after the report was issued (Section 7.07);
•   Procedures for ensuring that the audit report contains any significant facts that if not
    disclosed would mislead users, misrepresent the results, or conceal improper or illegal
    practices (Section 7.17);

•   Procedures for reporting known or likely fraud, noncompliance with provisions of laws,
    regulations, contracts, or grant agreements, or abuse directly to parties outside the audited
    entity when managements fails to (i) report such information to satisfy legal or regulatory
    requirements or (ii) take timely and appropriate steps to respond to such information
    (Sections 7.24-7.26);

•   Procedures for modifying the GAGAS compliance statement when auditors do not
    comply with all applicable GAGAS requirement (Section 7.31);

•   Procedures for indicating in the report that comments were not provided by management
    (Section 7.38); and

•   Procedures for describing how confidential and sensitive information will be reported,
    and how to disclose, in a report released to the public, that certain information was
    omitted or redacted. (Sections 7.39, 7.42-7.43).

Recommendation – That Ex-Im Bank OIG update the Audit Policy Manual to include the
items noted above.

Views of Responsible Official.

Ex-Im Bank OIG agreed that, although the Audit Policy Manual met standards, the Manual
could be improved by addressing the items noted. The Manual will be updated to include
these items by December 31, 2014.

Finding 2 – Overall assessment of evidence not documented

Section 6.69 of Government Auditing Standards states that auditors should determine the
overall sufficiency and appropriateness of evidence to provide a reasonable basis for the
findings and conclusions, within the context of the audit objectives, and should perform and
document an overall assessment of the collective evidence used to support findings and
conclusions, including the results of any specific assessments conducted to conclude on the
validity and reliability of specific evidence. Ex-Im Bank OIG’s Audit Policy Manual
contains this language.

Although we found that the collective evidence was sufficient in the two audits reviewed, an
overall assessment of the collective evidence used to support findings was not documented
for either audit.

Recommendation – That Ex-Im Bank OIG develop a process to ensure that their procedures
regarding the documentation of the overall assessment of the collective evidence used to
support findings are implemented.


                                          2
   Views of Responsible Official.

   Ex-Im Bank OIG agreed with the finding. A requirement to ensure that a summary
   workpaper is prepared for each audit documenting the overall assessment of the collective
   evidence will be in place by December 31, 2014.

Finding 3 – Communication of timing of the audit and planned reporting not documented

   Section 6.47 of Government Auditing Standards states that auditors should communicate an
   overview of the objectives, scope, and methodology and the timing of the performance audit
   and planned reporting (including any potential restrictions on the report) to management and
   those charged with governance. Section 6.49 states that the auditors should document this
   communication.

   For the Export-Import Bank’s Content Policy audit (OIG-AR-14-01), communication of the
   timing of the audit and planned reporting to management and those charged with governance
   was not documented in the workpapers.

   Recommendation – That Ex-Im Bank OIG develop procedures to ensure that communication
   regarding the requirements of section 6.47 is properly documented, as required by section
   6.49.

   Views of Responsible Official.

   Ex-Im Bank OIG agreed with the finding. A standard entrance conference agenda will be
   developed by December 31, 2014.




David Berry, Inspector General
Enclosure




                                           3
To:         David Berry, Inspector General
            National Labor Relations Board

From:       Mike McCarthy, Acting Inspector General
            Export-Import Bank of the United States

Subject:    Response to Draft Peer Review Letter

Date:       September 23, 2014

Thank you for providing us an opportunity to respond to the Draft System Review
Report and accompanying letter that was provided on September 19, 2014. We
appreciate the efforts of the National Labor Relations Board Office of Inspector
General in conducting our external peer review.

As noted in the draft report, the Export Import Bank (Ex-Im Bank) Office of
Inspector General (OIG) received an External Peer Review rating of pass. This rating
demonstrates that the system of quality control for the audit organization of Ex-Im
Bank in effect for the year ended March 31, 2014, has been suitably designed and
complied with to provide Ex-Im Bank OIG with reasonable assurance of performing
and reporting in conformity with applicable professional standards in all material
respects. We concur with the rating provided.

The letter accompanying the System Review Report included three findings which
were not considered to be of sufficient significance to affect the opinion expressed in
the report. The findings resulted in three recommendations to improve Ex-Im Bank
OIG’s policies and procedures. Our responses to the three recommendations are
below.

Recommendation 1 – That Ex-Im Bank OIG update the Audit Policy Manual to
include the items noted above.

We agree that Ex-Im Bank OIG’s Audit Policy Manual met standards but could be
improved by addressing or otherwise clarifying our policies with regard to the items
mentioned in the report. The Audit Policy Manual will be updated to include these
items by December 31, 2014.

Recommendation 2 – That Ex-Im Bank OIG develop a process to ensure that
their procedures regarding the documentation of the overall assessment of
collective evidence used to support findings are implemented.




                  811 Vermont Avenue, NW Washington, D.C. 20571
As noted in the letter, the collective evidence in the two audits reviewed was
sufficient and appropriate to provide a reasonable basis for the findings and
conclusions. Nevertheless, we agree that an overall assessment of the collective
evidence was not properly documented. We concur with the recommendation and
as such, we will ensure that a summary workpaper is prepared for each audit
documenting the overall assessment of the collective evidence. This requirement
will be in place by December 31, 2014.

Recommendation 3 – That Ex-Im Bank OIG develop procedures to ensure that
communication regarding the requirements of section 6.47 is properly
documented, as required by section 6.49.

For one of the audits reviewed, communication of the timing of the audit and
planned reporting to management and those charged with governance was not
documented in the workpapers. We concur with the recommendation and will
develop a standard entrance conference agenda to ensure that communication of
the timing of the audit and planned reporting is properly documented as required.
The agenda will be developed by December 31, 2014.

We appreciate the professionalism of the NLRB OIG auditors during the peer review.
If you have any questions, please do not hesitate to call Terry Settle, Assistant
Inspector General for Audits at (202) 565-3498.




                 811 Vermont Avenue, N.W. Washington, D.C. 20571
